HHS/OIG, Audit -"Oversight and Evaluation of the Fiscal Year 2003 Comprehensive Error Rate Testing Program,"(A-03-03-00014)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Oversight and Evaluation of the Fiscal Year 2003 Comprehensive Error Rate Testing Program," (A-03-03-00014)
November 10, 2003
Complete
Text of Report is available in PDF format (149 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether (1) the Comprehensive Error Rate Testing (CERT) contractor followed
established CERT error rate review policies and procedures and (2) the CERT quality assurance program ensured the reliability
of the CERT claims review process.  Our review of 105 claims found that the CERT contractor generally followed established
CERT error rate review policies and procedures for 99 claims.  However, the medical records for six claims were
never received, and letters requesting medical records were often sent late.  In addition, our review of another 45
claims found that the CERT contractor had not fully implemented the quality assurance program in accordance with established
procedures.  For 73 of the 105 claims sampled, the initial request for medical records was sent to the provider 9 to
20 days later than required and followup requests for missing medical records were sent 1
to 204 days later than required.  Also, quality assurance reviews were not performed for 22 of the 45 claims sampled,
and the results of those reviews that were performed were not shared with medical review specialists.